 DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General




   Transportation Security Administration’s
    Oversight of Passenger Aircraft Cargo
    Security Faces Significant Challenges
                 (Redacted)




OIG-07-57                        July 2007
                                                                                 Office of Inspector General

                                                                                 U.S. Department of Homeland Security
                                                                                 Washington, DC 20528




                                            July 11, 2007

                                                  Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
Department.

This report addresses the Transportation Security Administration’s (TSA) oversight of air carriers’
compliance with federal requirements relating to the acceptance, handling, and screening of cargo
shipped on passenger aircraft. It is based on interviews with TSA employees and officials, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                         Richard L. Skinner
                                         Inspector General




                Transportation Security Administration’s Oversight of Passenger Aircraft Cargo                      2
                                       Security Faces Significant Challenges
Table of Contents/Abbreviations

Executive Summary 1

   Background ...................................................................................................................................... 3

   Results of Audit ............................................................................................................................... 6

                                                                           Documentation To Determine Compliance.. 7
        TSA Cargo Inspections Are Not Consistent ............................................................................ 10
        TSA Does Not Ensure Air Carriers Conduct                                      Self-Audits ....................................... 12
        TSA’s Performance and Results Information System is Ineffective as a Monitoring and
        Reporting Tool ......................................................................................................................... 14
           Recommendations.............................................................................................................. 17
           Management Comments and OIG Analysis ...................................................................... 18


Appendices

        Appendix A:              Purpose, Scope, and Methodology................................................................. 23
        Appendix B:              Management Comments to The Draft Report................................................ 25
        Appendix C:              Major Contributors To The Report ................................................................ 33
        Appendix D:              TSA Aviation Security Inspectors’ Cargo Inspection Process ...................... 34
        Appendix E:              Detail of Identified Screening Compliance Issues......................................... 35
        Appendix F:              Photographs of Vulnerable Cargo Shipments................................................ 40
        Appendix G:              Report Distribution ........................................................................................ 41

Abbreviations
ATSA                                Aviation and Transportation Security Act
ASI                                 Aviation Security Inspector
FSD                                 Federal Security Director
GAO                                 Government Accountability Office
PARIS                               Performance and Results Information System
TSA                                 Transportation Security Administration




                     Transportation Security Administration’s Oversight of Passenger Aircraft Cargo                                                1
                                            Security Faces Significant Challenges
                                                                                                Audit
OIG                                                                                             Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                This report describes the results of our audit of the Transportation Security
                Administration’s oversight of air carrier compliance with cargo security
                regulations for passenger aircraft. Our objective was to determine whether the
                Transportation Security Administration provides adequate oversight of air
                carrier compliance with federal regulations relating to the acceptance, handling,
                and screening of cargo shipped on passenger aircraft.

                The Transportation Security Administration relies on inspections carried out by
                Aviation Security Inspectors as an integral part of a multilayered approach to
                oversee and ensure air carrier compliance with cargo security regulations.
                However, Aviation Security Inspectors face challenges monitoring and reporting
                air carrier compliance with federal regulations that address the acceptance,
                handling, and screening of cargo transported on passenger aircraft. The
                Transportation Security Administration’s inspection process may not accurately
                represent the extent to which air carriers comply with cargo screening
                requirements.
                                                                               to determine
                compliance                                                                  We
                reviewed inspection reports that specifically addressed screening compliance at
                five selected airports and concluded that            determined compliance or
                noncompliance based on actual observations.

                Additionally, the Transportation Security Administration does not provide
                sufficient resources for air carrier inspection coverage. Therefore, Aviation
                Security Inspectors do not have the capability to monitor cargo screening
                activities and are unable to report accurately on air carrier compliance. The
                Transportation Security Administration’s compliance database, the Performance
                and Results Information System, is ineffective as a tool to monitor and report air
                carrier compliance with screening regulations.

                The current level of oversight does not provide assurance that air carriers are
                meeting congressionally-mandated goals of tripling the amount of cargo



               Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                   Security Faces Significant Challenges
                                                  Page 1
      screened for passenger aircraft and that air carriers are properly applying
      exemption rules for cargo screening. Consequently, the process increases the
      opportunities for the carriage of explosives, incendiaries, and other dangerous
      devices on passenger aircraft.

      Accordingly, we are making a series of recommendations to the Assistant
      Secretary of the Transportation Security Administration to establish a system of
      cargo screening oversight and improve the agency’s Performance and Results
      Information System. The Transportation Security Administration concurred
      with the recommendations in the report. However, all but one recommendation
      will remain open because, in most cases, the actions that the Transportation
      Security Administration states it has taken, or will take, do not fully address our
      concerns and corresponding recommendations. Other recommendations will
      remain open until more specific details and documentation are provided on
      agency actions taken such that we can determine whether these steps adequately
      address the substance of our findings and recommendations. The Assistant
      Secretary’s comments to our report, dated May 24, 2007, are incorporated into
      the body of this report, as appropriate, and are included in their entirety as
      Appendix B.




Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 2
Background
               The Aviation and Transportation Security Act of 2001 requires the screening of
               all passengers and property transported on passenger planes. The Act charges
               the Transportation Security Administration (TSA) to oversee aviation security
               and ensure the safety of the air traveling public. The vast and multifaceted air
               cargo system transports approximately 7,500 tons of cargo on passenger planes
               each day, making air cargo vulnerable to terrorist threats. Given the high
               volume of cargo that must be expediently processed and loaded on aircraft,
               experts generally agree that full screening of all air cargo, as is now required of
               checked passenger baggage, is not feasible with available screening technologies
               and procedures. TSA reported that current requirements relating to the
               screening of air cargo apply only to a subset of all cargo that is actually
               transported. TSA calculates that only                of all passenger air cargo is
               actually screened because of screening exemption guidelines applied by air
               carriers. (See Exhibit 1.)




                        Source: TSA’s Aircraft Operator’s Standard Security Program

               The Assistant Secretary of the TSA has primary responsibility for enforcing and
               implementing all regulations related to aviation security. TSA has been working
               to improve air cargo security using a risk-based layered approach that balances
               enhancing security without impeding the flow of commerce. TSA enforces
               statutory and regulatory requirements, disseminates threat-related information,
               and provides guidance and some funding. TSA’s Office of Security Operations
               is responsible for operations and policy issues while the Federal Security
               Directors (FSD) at each airport are responsible for the day-to-day direction,
               leadership, and coordination of TSA security activities at their location,
               including air cargo screening. Air carriers and indirect air carriers are
               responsible for implementing TSA’s security requirements. An indirect air
               carrier is any person or entity, not in possession of an air carrier operating
               certificate, who undertakes to engage indirectly in air transportation of property
               and uses the services of a passenger air carrier for all or any part of such
         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 3
      transportation. Indirect air carriers, sometimes referred to as freight forwarders,
      consolidate cargo from many shippers and deliver it to passenger air carriers.

      The Code of Federal Regulations, Title 49, Parts 1544 and 1546, requires
      domestic and foreign air carriers to adopt and implement a security program to
      provide for the safety of persons and property traveling on flights provided by
      the aircraft operator. The program protects against acts of violence, air piracy,
      and the introduction of explosives, incendiaries, or weapons aboard an aircraft.
      TSA issued the Aircraft Operator Standard Security Program for Domestic Air
      Carriers and the Model Security Program for Foreign Air Carriers. TSA’s
      security programs direct that, at the time of
      acceptance, the aircraft operator must             EXHIBIT 2:
                                                         Approved Cargo Screening Methods
      inspect all cargo                        ,
                                                                      Manifest verification
                                . TSA’s security
      programs require aircraft operators to screen
      cargo after acceptance, but prior to loading                • Physical inspection (screener
      the cargo onboard the aircraft for the first air               searches through the contents of the
      leg, using one of the approved screening                       shipment)
                                                                  • X-ray equipment
      methods shown in Exhibit 2. The air carrier                 • Explosive detection systems
      must not transport any cargo that shows                     • Detection canine teams
                    . TSA also requires that from the             • Explosives trace detection
      time of acceptance until the transfer of the                • Decompression chambers
                                                                 Source: TSA’s Aircraft Operator’s
      cargo, the aircraft operator must maintain                 Standard Security Program
      direct custody and control of the cargo.

      TSA relies on the oversight and inspections carried out by Aviation Security
      Inspectors (ASI), who are located at airports throughout the United States. ASIs
      are responsible for inspecting approximately 285 passenger and all-cargo air
      carriers with about 2,800 cargo facilities nationwide. ASIs are classified as
      Generalist ASIs, who conduct a variety of aviation security inspections, and
      Cargo ASIs, who conduct only air cargo inspections. TSA has approximately
      300 Cargo ASIs, supplemented by 600 Generalist ASIs, responsible for
      conducting inspections of screening activities at approximately 100 airports.
      ASIs document inspection results in the Performance and Results Information
      System (PARIS), which TSA uses for factual and analytical information,
      monitoring compliance, measuring performance, assessing the efficiency and
      effectiveness of operations, and conducting inquiries into allegations of
      noncompliance with statutory or regulatory requirements.

      TSA also relies on the Known Shipper Program as a primary means for
      screening air cargo. The program provides a systematic approach to assess risk
      and determine the legitimacy of shippers. Passenger air carriers and indirect air
      carriers must comply with a broad range of specific security requirements to
      qualify their customers as known shippers. More detail of the inspection
      process is provided in Appendix D.
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 4
      TSA provides its Federal Security Directors with the Annual Aviation
      Inspection Plan as guidance on how to develop their local annual inspection
      plans. The Annual Aviation Inspection Plan contains             inspection goals
      requiring ASIs to conduct                                          cargo station
      inspections and                         station inspections           . TSA also
      provides the National Inspection Manual and other regulations, rules, and
      directives, as guidance for air cargo security. TSA requires ASIs to follow the
      National Inspection Manual as their primary guidance for conducting
      inspections, which provides ASIs with a consolidated reference source for
      national requirements relating to planning, conducting, documenting, and
      approving inspections.

      In October 2005, the Government Accountability Office (GAO) report, Federal
      Action Needed to Strengthen Domestic Air Cargo Security (GAO-06-76), raised
      concerns about the quality and thoroughness of TSA’s cargo inspections.
      According to GAO, TSA could not be assured that increasing the percentage of
      cargo screened by air carriers would enhance air cargo security. GAO also
      expressed concern that TSA exempted certain cargo from air carrier inspection
      based on the nature and size of the cargo, creating potential vulnerabilities in the
      air cargo security system. Therefore, GAO recommended that TSA strengthen
      the security of the domestic air cargo transportation system and reexamine the
      rationale for exemptions because of the associated vulnerabilities. TSA said the
      agency continually reviews the measures in place as part of the threat-based, risk
      managed approach to securing the air cargo environment and would soon launch
      a review of current air cargo policies and processes.

      The DHS Appropriations Act of 2005, Public Law 108-334, Section 513,
      mandated TSA to require domestic and foreign passenger air carriers to triple
      the amount of cargo screened,                 of nonexempt cargo listed on each
      air waybill. In response to a congressional request, we conducted a limited
      review in the spring of 2006 to determine whether TSA was complying with the
      reporting requirements contained in Section 513 of the Fiscal Year 2006 DHS
      Appropriations Act, Public Law 109-90. That law requires the Secretary of
      Homeland Security to ensure that DHS is in compliance with Public Law
      108-334, and to report to the Committees on Appropriations of the Senate and
      House of Representatives biweekly on any reasons for noncompliance with the
      increased screening requirement. During the review, we observed deficiencies
      that supported GAO’s concerns and represented significant weaknesses in air
      carrier screening operations.




Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 5
Results of Audit
                  TSA relies on inspections carried out by Cargo ASIs as an integral part of a
                  multilayered approach to oversee and ensure air carrier compliance with cargo
                  security regulations. However, ASIs face challenges in monitoring and
                  reporting on air carrier compliance with federal regulations that address the
                  acceptance, handling, and screening of cargo transported on passenger aircraft.
                  TSA’s inspection process may not accurately represent the extent to which air
                  carriers comply with cargo screening requirements.
                                                                                         , to
                  determine compliance
                         . TSA’s Annual Aviation Plan directs Federal Security Directors to
                  ensure that ASIs inspect each aircraft operator and foreign air carrier
                                , but limits the number of inspections conducted at individual air
                  carrier cargo facilities to     inspections          , unless previous inspections
                  determined a lack of compliance or other specific factors. A cap on the number
                  of on-site inspections of air carriers may unnecessarily limit direct observation
                  by ASIs to determine carrier compliance with cargo security regulations. We
                  reviewed inspection reports that specifically addressed screening compliance at
                  five selected airports and concluded that              determined compliance or
                  noncompliance                                    Additionally, TSA does not
                  provide sufficient resources for air carrier inspection coverage. Therefore, ASIs
                  do not have the capability to monitor cargo screening activities and cannot
                  accurately characterize air carrier compliance with the regulations.

                  ASIs do not perform inspections consistently among airports to determine
                  whether air carriers apply the regulations as intended. Security programs and
                  exemption guidelines are not clearly written and allow for different
                  interpretation and application by both aircraft operators and TSA inspectors.
                  Furthermore, TSA does not ensure that air carriers conduct             self-audits
                  at each screening location as required. TSA’s compliance database, PARIS, is
                  not an effective tool to monitor and report air carrier compliance with screening
                  regulations.

                  Without a comprehensive, consistent, and reliable program to provide proper
                  coverage and oversight of air carrier cargo screening, TSA’s inspection process
                  does not ensure that air carriers are screening cargo to federal regulations. The
                  current level of oversight does not provide assurance that air carriers are meeting
                  congressionally-mandated goals of tripling the amount of cargo screened for
                  passenger aircraft, and that air carriers are properly applying exemption rules for
                  cargo screening. Consequently, the process increases the opportunities for the
                  carriage of explosives, incendiaries, and other dangerous devices on passenger
                  aircraft.



            Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                   Security Faces Significant Challenges
                                                  Page 6
                                                             Documentation To Determine
Compliance

       TSA’s oversight of air carrier compliance with cargo screening requirements for
       passenger aircraft may not be effective
                                             Shipments are not properly accepted and
       screened, or lack documentation to support whether appropriate screening
       occurs.

                                                                          . TSA does
       not provide sufficient resources for cargo inspection coverage; therefore, ASIs
       do not have the capability to monitor cargo screening and cannot accurately
       characterize air carrier compliance with the regulations.

       ASIs                                                 rarely observe air carriers’
       accepting, handling, and screening cargo to determine air carrier compliance
       with requirements for cargo transported on passenger aircraft, making the
       quality and quantity of inspections questionable. Some ASIs said they walk the
       cargo facility floor and inspect cargo when possible before reporting to the
       office and reviewing air carrier documentation. Other ASIs said they usually
       focus on the paperwork and devote less attention to the cargo itself. The
       National Inspection Manual directs that when an inspector is assigned to
       conduct a security inspection, the inspector will employ a methodology that
       includes surveillance, interviewing, document review, and validation testing.
       However, ASIs routinely rely on document reviews by comparing the air
       carrier’s air waybills for the last passenger flight with the screening logs to
       determine whether the air carrier properly exempts cargo from screening, and
       screens        of the nonexempt cargo on each air waybill.




 Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                        Security Faces Significant Challenges
                                       Page 7
                           As shown in Figure 1, we reviewed inspection reports that specifically addressed
                           screening compliance at five selected airports and concluded that
                           determined compliance or noncompliance based on actual observations. ASIs
                           reported on screening compliance                              without observing
                           screening activities or noting how the inspectors reached their conclusion.

                           The risks of ASIs relying           on             documentation of cargo
                           screening became evident by our observations at 40 air cargo facilities at the
                           5 Category X airports 1 we visited. TSA ASIs may not accurately determine the
                           level of air carrier compliance

                                                                               We identified numerous instances
                           where:
                              • Air carriers improperly applied screening exemption criteria;
                              • Air carriers did not screen the required minimum percentage of
                                  nonexempt cargo;
                              • Cargo lacked legible documentation to support whether proper screening
                                  occurred; and
                              • Cargo documentation that indicated screening had occurred, but in fact
                                  the shipment had not been screened.

                           (See Appendix E and Appendix F, respectively, for additional details and
                           photographs of vulnerable cargo shipments.)

                           For example:
                              •




1
 TSA classifies the commercial airports in the United States into one of five security risk categories (X, I, II, III, and IV)
based on various factors, such as the total number of takeoffs and landings annually, and other special security
considerations. In general, Category X airports have the largest number of passenger boardings, and Category IV airports
have the smallest.
                     Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                            Security Faces Significant Challenges
                                                           Page 8
          •         nonexempt cargo shipments did not
               have the required minimum of     screened.



      In addition, we identified       cargo facilities that had access vulnerabilities.
      Unauthorized personnel walked around the warehouses and employees worked
      without displaying proper identification. Even if the cargo were accepted and
      screened by the air carriers according to TSA requirements, the absence of
      security within the facilities adds another obstacle to ensuring that screened
      cargo shipments remain safe. Our review demonstrates the need for
                                            and less reliance on air carrier
      documentation and interviews.

      A comparison of findings of air carrier noncompliance reported by ASIs to the
      level of noncompliance we identified during our limited visits, places the
      thoroughness of ASI inspections into question. We reviewed a sample of
      1,904 inspection reports.              sites, or     had reported findings of
      non-compliance. However, during our observations at 40 air carrier cargo
      facilities, ASIs conducted inspections at 24 sites in our presence and reported
      findings at          , or      Although areas of non-compliance were found at
      the          , following our on-site visit, ASI inspection reports indicated findings
      at           of the locations.



                            TSA’s Annual Aviation Plan directs the Federal Security
      Director to ensure that TSA inspects each aircraft operator and foreign air carrier
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 9
                                . The plan also includes            inspection goals that
        require locations with Cargo ASIs to conduct                         facility
        inspections and                           station inspections. The plan further
        requires the number of inspections of any one air carrier cargo facility or
        indirect air carrier station should not exceed                 unless previous
        inspections determined a lack of compliance or other specific factors. TSA
        officials said that             visits to an air carrier        are sufficient to
        determine air carrier compliance with cargo screening regulations. A cap on the
        number of on-site inspections of air carriers may unnecessarily limit direct
        observation by ASIs to determine carrier compliance with cargo security
        regulations.

        ASIs’ time available to inspect air carrier facilities is further limited by other
        priorities and management decisions. ASIs and their supervisors estimate that
             of their time is allocated to inspecting                      s, leaving      for
        inspecting




        ASIs explained that they do not have a sufficient number of vehicles allocated to
        support their inspection activities. For example, one airport had two vehicles
        specifically designated to provide transportation to 13 ASIs. Another airport
        had three vehicles assigned to six ASIs for cargo security inspections.
        Inspectors must be flexible with their inspection activities and perform other
        office work until a vehicle becomes available. In TSA’s management response
        to the draft report, the agency said it purchased 81 additional vehicles for
        selected airports, and planned to purchase an additional 28 vehicles with
        delivery scheduled for August 2007.

TSA Cargo Inspections Are Not Consistent

        ASIs do not perform inspections consistently among airports to ensure air carrier
        compliance with cargo security requirements for passenger aircraft. TSA's
        security programs are not clearly written, allowing ASIs and air carriers to
        interpret and apply the regulations differently. ASIs reported not being properly
        trained to provide effective and consistent oversight of air cargo security.

        Inspectors, even within each airport, differed among themselves on the
        interpretation and application of the regulations, as well as the methodology



  Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                         Security Faces Significant Challenges
                                        Page 10
      they used to conduct inspections. For
      example, the TSA-approved security
      program and regulations allow domestic
      air carriers to exempt shipments from
      screening if the cargo

                      However, some
      inspectors allow air carriers to exempt
      cargo if there is




      We identified other examples of the inconsistent application of inspection
      methodology and cargo regulations. ASIs differed in the amount of evidence
      they collected as a result of their inspection. While some ASIs listed a minimal
      amount of support, one ASI said he collects supporting documentation until he
      runs out of space in his office. ASIs also explained that they resolve findings
      differently. Some ASIs would pursue noncompliance matters with stronger
      penalties, while others admitted that counseling was faster and easier to
      administer.

      Vague regulations and guidance allow ASIs to interpret and apply the
      regulations inconsistently. ASIs and air carriers were confused about screening
      requirements                                                  We observed
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 11
        differences on what percentage                     were screened. For example,
        one Supervisory ASI believed that TSA required                      boxes to be
        screened because she never received TSA’s policy memo r
              , which was released almost a year before our visit. The new policy
        requires screening of                                       Furthermore, the
        policy did not provide guidance on how the screening should be documented
        when the air waybill showed                         making the determination of
        compliance difficult.

        Although TSA personnel provide a number of services to minimize questions
        pertaining to regulations, such as clarification through question and answer
        sessions, the support resolves issues on an isolated basis and ASIs are unable to
        enforce the informal correspondence. TSA established a web-based mailbox for
        ASIs to send their questions; however, many ASIs indicated they did not always
        receive answers to their queries. A TSA official involved with writing the
        security programs acknowledged the ambiguity of the regulations, and explained
        that it is not easy to write short, clear regulations that are fully enforceable when
        the agency must write them as simple as possible.

        Lack of adequate security cargo training may also be a contributing factor to the
        inconsistent and ineffective manner in which ASI inspections are conducted.
        Many inspectors said that TSA’s cargo security training was insufficient because
        the initial 4-week training course addressed cargo security for only 3 days at the
        most.




        TSA reported the agency introduced an “On-the-Job” formal training program
        that would allow new inspectors to travel to another airport and learn from a
        designated trainer. However, the training is not mandatory and the Federal
        Security Director may elect to not send the new inspectors. TSA also held a
        conference in late 2006 to address new regulations, but did not review the
        current regulations that are unclear and inconsistently interpreted.

TSA Does Not Ensure Air Carriers Conduct                              Self-Audits

        ASIs do not consistently ensure that air carriers conduct required self-audits
        according to federal regulations. Inspections that address air carrier compliance
        with TSA’s screening requirements should include a determination of whether
        air carriers complied with TSA’s self-audit requirement; however, ASIs do not
  Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                         Security Faces Significant Challenges
                                        Page 12
      routinely address the self-audit requirement during inspections of screening
      procedures. By not consistently ensuring that carriers conduct required self-
      audits of their security programs, TSA is missing an opportunity to improve the
      effectiveness of their oversight activities.

      TSA’s security program requires that air carriers conduct self-audits
                      at each screening location. The self-audit is an important
      exercise that requires the air carrier to
      review key operational and administrative
      screening elements. Self-audits help to
      ensure screeners’ attentiveness to duties,
      screening equipment operations, and
      screener training. Additionally, TSA’s
      Annual Aviation Inspection Plan for 2006
      requires Federal Security Directors, or
      designees, to conduct comprehensive
      inspections and follow-up supplemental inspections                       to include
      a review of self-audits. ASIs use a list of required elements from PARIS for
      their inspections of air carrier compliance with security program requirements.
      Under “Screening Procedures” for domestic air carriers, PARIS requires that “A
      self audit …be conducted                        at each location the aircraft
      operator conducts screening, are kept on file for a minimum of ninety days, and
      are made available to TSA upon request.”




          •    Inspectors at one airport said that they do not review self-audits at all as
               part of the inspection process.
          •    ASIs at another airport said they looked at self-audits; however,
                  inspection reports addressing screening activities reported the self-
               audits were "Not Inspected.” Additionally,                 reports were
               marked as “Comprehensive Inspections” or “Part of Comprehensive
               Inspections,” but the inspectors determined compliance with the self-
               audit requirement in                  .
          •    ASIs at a third airport said they review air carrier self-audits; however, a
               review of the inspection reports indicated the quality of review is
               questionable.                   s reported that an air carrier could not
               provide documented evidence of a self-audit; yet the ASI reported the
               element as "In Compliance."
               An ASI requested documentation of the self-audit and the station
               manager responded that




Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 13
                   self-audits provide a cyclical and consistent method for TSA to ensure
        air carriers are verifying that screening personnel and operations are effective.
        By not conducting self-audits, TSA and air carriers are missing an opportunity
        to improve screening activities and ensure they are conducted according to TSA
        requirements. The limited review of self-audits may lead to weaknesses in
        screening operations and may allow opportunities for the introduction of
        explosives, incendiaries, weapons, and other dangerous devices on passenger
        aircraft.

TSA’s Performance and Results Information System Is Ineffective as a Monitoring
and Reporting Tool

        TSA relies on PARIS as the primary management tool for monitoring the quality
        and quantity of ASI inspections. However, the system faces many obstacles that
        call into question TSA’s ability to monitor and report air carrier compliance with
        screening regulations. TSA does not have quality control procedures in place to
        prevent inconsistent and inaccurate data entry. TSA officials and ASIs
        described difficulties and technical problems with using the system. In 2006, a
        TSA advisory council identified numerous PARIS challenges, including:

            •    Insufficient funding,
            •    Rigid contract terms and conditions that prevent timely and agile
                 response to TSA needs,
            •    Limited TSA information technology support, and
            •    Insufficient resources provided to the database and its users.




  Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                         Security Faces Significant Challenges
                                        Page 14
      TSA does not provide specific guidance on the quality and quantity of
      information entered into PARIS, making the inspection data inconsistent and its
      veracity problematic. PARIS provides ASIs multiple answers to select for each
      inspection, but TSA does not have standards in place that specify levels of detail
      and evidence needed to determine compliance. PARIS guidance does not
      require ASIs to provide supporting evidence, comments, or explanations to
      support conclusions about air carrier compliance with regulations. TSA said
      that Assistant Federal Security Directors of inspections and ASI supervisors
      have responsibility for quality control of inspection data, and TSA Headquarters
      conducts spot-checks of the data to ensure consistency and completeness.
      However, TSA’s quality control procedures are not consistently assuring data
      quality and completeness.

      ASIs addressed 3,648 questions in the 251 inspection reports reviewed, but did
      not sufficiently answer 1,396 of the items, or 38%, to support the inspectors’
      determination of compliance or noncompliance. ASIs answered many of the
      questions with little or no detail to support the inspectors’ conclusions. A TSA
      official supported this with other examples of inaccuracies and inconsistencies
      that he recognized with inspection results entered in PARIS. In one case, the
      ASI reported an area as “In Compliance” and contradicted the conclusion in the
      supporting explanation.

      Our review discovered similar circumstances. For example, an ASI reported an
      air carrier as “In Compliance” for “Employees having the duties and
      responsibilities for acceptance, handling, and carriage of cargo under its security
      program are trained and knowledgeable of their security responsibilities; and a
      record of this training is kept on file at the employee's place of employment.”
      However, the inspection report categorized this as a finding and reported, “(the)
      Air Carrier failed to provide cargo security training or maintain a record of
      training for their employees responsible for cargo handling and acceptance at the
      inspected location.” Another inspection reported the air carrier as “In
      Compliance” for “Cargo accepted directly from a known shipper and transported
      on a passenger aircraft meet the requirements of MSP Section IV.C.6.d.” The
      inspection report then categorized this as a finding and reported the air carrier
      accepted the shipment from an unknown shipper.

      To address PARIS issues and challenges, in 2006, TSA created the PARIS
      Advisory Group, a subgroup of the Compliance Advisory Group, which
      comprises experts, advisors, and Federal Security Directors. The group
      reported numerous problems and challenges associated with PARIS:

          •    “PARIS lacks sufficient infrastructure support, adequate business rules,
               and defined resources to data integrity.”
          •    “Training and education have not kept pace with the expanding
               requirements and growth of the workforce and there is evidence of
               inaccurate output and a lack of confidence in the data.”
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 15
          •    “(PARIS) lacks the resources to ensure administrative oversight and
               accountability.”
          •    “PARIS problems…are the result of disjointed fixes lashed together by a
               series of incongruent recommendations from headquarters and field
               elements and piece-meal funding.”
          •    “Rigid adherence to terms and conditions of contract support prevent
               quick and agile response to TSA needs.”
          •    “Insufficient in-house IT support… to support PARIS and its users.”

      TSA Headquarters, the PARIS Advisory Group, and ASIs described difficulties
      and technical problems in using PARIS. Personnel at all five airports reported
      instances of entering inspection data into the database that they had trouble
      retrieving. ASIs at three of the five airports reported that they lose inspection
      data in PARIS and save inspections as Microsoft Word documents or hard
      copies as a precaution. Two airports reported that if multiple inspection reports
      are printed and the ASIs do not completely exit the system after printing each
      report, the system inserts incorrect security contact information for the next
      report generated. TSA PARIS officials said that this issue is currently being
      resolved. The PARIS program manager indicated that most of the problematic
      instances cited by personnel in the field are the result of user errors and
      explained that data does not disappear—PARIS is just not an easy system to
      manipulate, and the users need to be trained. However, TSA has not
      implemented business rules and other corrective actions to prevent the errors
      and ensure quality in the system.

      TSA cannot effectively and accurately monitor, analyze, and report compliance
      for air carriers regarding cargo security due to PARIS limitations. Without a
      user-friendly system, proper training, and oversight, the PARIS data may be
      flawed and produce erroneous inspection results. Furthermore, TSA
      information reported to the Congress regarding air carrier compliance with
      legislative and regulatory requirements may be inaccurate.




Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 16
Recommendations
         We recommend that the Assistant Secretary of the Transportation Security
         Administration:

         1. Establish a system of cargo screening oversight that includes the following elements:

            a. Clearly written guidance and comprehensive training on the intent of the
               regulations and exemption criteria for the acceptance, handling, and screening of
               cargo so the requirements are accurately interpreted and applied;
            b. Specific procedures on how to improve inspections, to include the increased
               frequency of inspections and amount of direct observations of air carriers
               screening operations, and the quality and quantity of information that should be
               obtained during inspections;
            c. Guidance on what aspects of the security program requirements should be
               inspected and how often, including the self-audit requirement for air carriers to
               ensure that screening activities are conducted according to Transportation
               Security Administration requirements;
            d. A quality control program to improve the consistency, thoroughness, and quality
               of cargo security inspections; and
            e. Providing sufficient resources to the cargo inspection program, particularly
               inspectors and vehicles, that would allow an increased Transportation Security
               Administration presence and monitoring at aircraft operator cargo facilities to
               collect and report data that represents more realistic compliance conditions.

         2. Improve the Performance and Results Information System. Specifically:

            a. Provide better guidance and detailed training to all users, especially Aviation
               Security Inspectors, on the quality or quantity of information that should be
               collected and entered to ensure data integrity and enhance the system as a
               management tool.
            b. Provide sufficient staff and funding for database operations and maintenance,
               including information technology support, to ensure data integrity and improve
               reporting capabilities.




           Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                  Security Faces Significant Challenges
                                                 Page 17
Management Comments and OIG Analysis
                     TSA generally concurred with the report’s findings, conclusions and
                     corresponding recommendations. TSA appreciated the OIG’s efforts in
                     conducting this audit and believes the report’s recommendations will help the
                     agency improve and implement more effective oversight of passenger aircraft
                     security inspections. However, the Assistant Secretary indicated that the agency
                     has reached a number of significant milestones to improve the security of cargo
                     traveling on passenger aircraft while working with industry to implement risk-
                     based solutions.

                     The agency provided examples of policy enhancements and initiatives to
                     strengthen its air cargo compliance and enforcement program. For example, in
                     May 2006, TSA issued a comprehensive air cargo security rule to enhance
                     security of the air cargo supply chain. In October 2006, the agency said that it
                     increased the quantity and quality of cargo screening by issuing a series of
                     security enhancements through Security Directives and Emergency
                     Amendments. The agency also noted that it strengthened its air cargo
                     compliance and enforcement program by increasing the number of ASIs,
                     instituting a “cargo strike” program, and implementing a covert testing program.

                     The agency’s response also indicated efforts to modify PARIS features to
                     enhance user’s knowledge and understanding of the reporting application,
                     increase connectivity to TSA’s systems used by ASIs, and a plan to improve
                     compliance reviews and implement quality control measures beginning in
                     FY 2008. TSA stated that the agency will put greater emphasis on ASI
                     observation, interviewing, and testing and will refine its FY 2008 plan to address
                     the frequency of ASI inspections.

                     In addition, TSA has taken initial steps to evaluate the current staff and funding
                     level for its PARIS database operations and maintenance. TSA also identified
                     the specific need for additional technical staff to support the PARIS program
                     and will work to coordinate the allocation of additional resources accordingly.
                     TSA is procuring an enhanced Helpdesk service for PARIS users that will
                     alleviate some of the user management issues that consume a large segment of
                     current staff time.

OIG Analysis
                     We recognize the agency’s efforts to improve the passenger cargo inspection
                     program and acknowledge steps taken to raise the security bar for passenger and
                     cargo air carriers. The agency concurred with our recommendations. We
                     consider all recommendations resolved based on the steps and initiatives TSA
                     has taken, or plans to take, to address our concerns. However, all but one
                     recommendation will remain open because, in most cases, the actions that TSA
                     indicates the agency has taken or will take, do not fully address our concerns
                     and corresponding recommendations. The recommendations will remain open
               Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                      Security Faces Significant Challenges
                                                     Page 18
      until more specific details and documentation are provided on agency actions
      taken such that we can determine whether these steps adequately address the
      substance of our findings and recommendations.

      Management Comments to Recommendation 1.a:
      TSA concurred with our conclusion that the system of air cargo screening
      oversight needs to include clearer guidance and more comprehensive training.
      The agency indicated that it has in fact provided such guidance and training
      within the last year. For example, in October 2006, TSA provided a three-day
      training session to field inspectors and supervisors on the air cargo final rule and
      seven new security directives. In addition, the agency has conducted regular bi-
      weekly teleconferences with staff and posted answers to questions on its
      employee web board. TSA also published a detailed question and answer
      document it clarifies the new cargo screening requirements in detail. TSA said
      some field staff were not fully aware of the resources for guidance available to
      them and, consequently, TSA’s Office of Security Operations reminded the staff
      of the complete range of references available for their use in May 2007.

      OIG Analysis
      We commend TSA for their efforts to assemble and train its Cargo ASI
      workforce in 2006; however, we believe that TSA has only partially addressed
      our concerns and, therefore, we consider this recommendation open. The
      October 2006 training focused on the new security rules and does not satisfy all
      of the concerns about quality of training for new Cargo ASIs and the resulting
      disparate interpretations and application of cargo security regulations by ASIs.
      In addition, TSA’s response does not address our recommendation that the
      agency develop and distribute more clearly written guidance on air cargo
      security regulations, particularly with regard to the intent and appropriate
      application of cargo screening exemption criteria.

      Management Comments to Recommendation 1.b:
      TSA concurred with our conclusion and stated that oversight methods other than
      document review are vital to an effective compliance and enforcement program
      and will work to create specific procedures to improve inspections. TSA stated
      its four-week core training and subsequent On-the-Job training program teaches
      Cargo ASIs the importance of observation, interview, surveillance, and
      document review techniques for effectively gauging industry compliance.

      OIG Analysis
      The agency’s response generally indicates that it is satisfied that the current
      training regime is sufficient to address our concerns about Cargo ASI inspection
      practices we observed, which tended to emphasize documentation review over
      direct observation. As noted in the report, many Cargo ASIs said that TSA’s
      cargo security training did not adequately address inspection techniques. Based
      on our findings, we do not believe that current classroom and On-the-Job
      training sufficiently addresses our concerns about the reliance by ASIs on
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 19
              documentary review. TSA needs to specifically emphasize the need for
      more observation and less reliance on the air carriers’ word or documentation as
      the most effective inspection technique Cargo ASIs can utilize to ensure
      compliance with TSA’s security programs. Accordingly, we consider the
      recommendation open until our concerns are addressed.

      Management Comments to Recommendation 1.c:
      The agency’s response states that TSA’s FY 2007 Annual Inspection Plan
      provides clear direction regarding how often to conduct inspections and
      specifies the regulatory requirements that Cargo ASIs should prioritize during
      air cargo inspections. TSA further said the Annual Inspection Plan does not cap
      or limit the number of inspections to be conducted on any regulated party but
      instead provides flexibility needed at the local level. Notwithstanding, the
      agency’s response indicates that TSA plans to refine the FY 2008 Annual
      Inspection Plan to clarify there is no limit to the frequency of inspections of
      regulated parties. In addition, the agency’s response states that TSA has
      developed critical air cargo inspection protocols for all inspectors conducting air
      cargo compliance reviews.

      OIG Analysis
      We disagree with a portion of the agency’s response. As stated on page 10 of
      this report, TSA’s Annual Inspection plan contains language that limits number
      of inspections to                           unless previous inspections
      determined a lack of compliance or other factors. We will consider this
      recommendation open until the agency provides us documentation indicating
      that its FY 2008 Annual Inspection plan clearly states that there is no cap on the
      number of inspections of regulated parties.

      TSA’s development of critical inspection protocols should provide clear
      direction to Cargo ASIs for ensuring that specific critical inspection elements
      are covered during air cargo inspections. The FY 2007 plan requires that critical
      inspections be conducted at both domestic aircraft operators and foreign air
      carrier stations, and includes an appendix containing the critical inspection
      prompts that must be inspected. However, the plan fails to include critical
      prompts for the foreign air carrier station critical inspections. Additionally,
      TSA’s response failed to address our observation about the lack of inspection of
      the carrier self-audit requirement, which is
               in the FY 2007 Annual Inspection Plan. Because of these factors, the
      recommendation remains open.

      Management Comments to Recommendation 1.d:
      TSA concurred with our observation and said that the agency would establish
      additional procedures to better ensure consistency and thoroughness of field
      audits. TSA has already taken several actions to implement this
      recommendation. The agency established critical air cargo inspection protocols
      to help ensure consistency on which prompts each Cargo ASI inspects. The
Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 20
      agency also believes that reviewing inspection reports is the local FSD’s
      responsibility. TSA implemented a structured and recurring “spot-check”
      review process whereby TSA headquarters staff reviews compliance reports to
      further ensure inspection reports meet the highest standards. TSA’s FY 2008
      Annual Inspection Plan will contain specific direction regarding quality control
      measures for air cargo inspections.

      OIG Analysis
      We agree with the actions TSA has taken and plans to take to address the intent
      of our recommendation. However, the recommendation will remain open until
      TSA completes all planned actions to address our concerns, and provides us
      documentation that specifically details actions taken to improve the consistency,
      thoroughness and quality of cargo security inspections.

      Management Comments to Recommendation 1.e:
      TSA concurred with our observation and acknowledged that additional
      resources, such as more inspectors and vehicles, would allow increased TSA
      oversight of air cargo operators. The agency said it used available funding to
      order and receive 81 vehicles in April 2007, and to order another 28 vehicles
      with delivery scheduled for August 2007. TSA is also in the process of
      distributing personal digital assistants to all 300 Cargo ASIs to facilitate
      inspection data input into PARIS. The upgrade to PARIS needed to complete
      this enhancement is scheduled for early 2008.

      OIG Analysis
      TSA has been responsive to our recommendation and has taken steps to provide
      additional vehicles and resources to its Cargo ASIs, and we consider the
      recommendation closed.

      Management Comments to Recommendation 2.a:
      TSA concurred with our observation and stated the agency is currently
      modifying the training features of PARIS to enhance the user’s knowledge and
      understanding of the PARIS reporting application. TSA efforts are continuing
      to provide field personnel with expanded local reporting capabilities beyond the
      fixed PARIS reports already available to them. TSA will enhance the level of
      supervision and guidance of the inspection workforce.

      OIG Analysis
      We commend TSA for the agency’s efforts to educate PARIS users and expand
      the level of reporting capability in the field. The agency’s response, however,
      was silent concerning what type of supervision and guidance the agency will
      provide to the inspection workforce as to the quality and quantity of inspection
      data that Cargo ASIs should enter into PARIS upon completion of an inspection.
      This recommendation will remain open until the agency provides us with
      documentation which provides these details.


Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 21
      Management Comments to Recommendation 2.b:
      TSA concurs and has taken initial steps to evaluate the current staff and funding
      level for database operations and maintenance at headquarters. TSA identified
      the specific need for additional technical staff to support the PARIS program
      and will work to coordinate the allocation of additional resources accordingly.
      TSA is procuring an enhanced Helpdesk service for PARIS users that will
      alleviate some of the user management issues that consume a large segment of
      current staff time.

      OIG Analysis
      We agree with the actions TSA has taken, or plans to take to address our
      observations concerning insufficient resources provided towards support of its
      PARIS database. We will consider the recommendation open until planned,
      future actions, such as enhancing the agency’s Helpdesk service and the
      allocating additional technical staff resources, are complete.




Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                       Security Faces Significant Challenges
                                      Page 22
Appendix A
Purpose, Scope, and Methodology


                    The objective of the audit was to determine whether TSA provides adequate
                    oversight of air carriers’ compliance with federal security regulations relating
                    to the acceptance, handling, and screening of cargo shipped on passenger
                    aircraft. Specifically, we assessed whether:

                        •    TSA’s overall methodology for conducting and documenting cargo
                             inspections is an effective system to ensure air carriers comply with
                             passenger air cargo screening requirements.
                        •    TSA ensures that air carriers          inspect 100% of accepted cargo,
                             and screen the required percentage of shipments not exempt from
                             screening.
                        •    TSA ensures that air carriers correctly interpret and apply screening
                             exemption criteria.
                        •    TSA ensures that air carriers conduct the required self-audits
                             according to federal security requirements.

                    To evaluate how effective TSA is overseeing air carrier compliance with its
                    security programs, we visited 5 airports and 40 cargo facilities, and
                    interviewed 31 ASIs to determine the methodology inspectors use to conduct
                    regulatory inspections. To assess TSA’s oversight of air carriers’ compliance
                    with federal regulations relating to the acceptance, handling, and screening of
                    cargo shipped on passenger aircraft, we obtained and reviewed applicable
                    federal laws, directives, and regulations; TSA’s Aircraft Operator Standard
                    Security Program for Domestic Air Carriers and the Model Security Program
                    for Foreign Air Carriers; and associated Security Directives and Emergency
                    Amendments. We also reviewed prior audit reports and current TSA
                    initiatives.

                    We interviewed personnel at TSA Headquarters. We selected five airports
                    and interviewed Federal Security Directors, Assistant Federal Security
                    Directors, and TSA ASIs, as well as air carrier personnel and their contractors
                    involved with air cargo security. We observed operations, security, and cargo
                    inspections while visiting the air carrier cargo facilities. We had to rely on
                    information generated by TSA’s Performance and Results Information
                    System; however, we noted the limitations of the system as a finding in our
                    report. We also obtained and reviewed reports and documents used by




             Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                    Security Faces Significant Challenges
                                                   Page 23
Appendix A
Purpose, Scope, and Methodology


                    inspectors to conduct their assessments. We reviewed and obtained copies of
                    screening documentation from air carrier cargo facilities.

                    During our survey phase, we visited
                    because it was a Category X airport                               . We then
                    selected four airports
                                       to assess TSA’s oversight of air carriers’ compliance with
                    federal regulations relating to the handling and screening of cargo shipped on
                    passenger aircraft:




                    We conducted fieldwork between August 23 and November 19, 2006, under
                    the authority of the Inspector General Act of 1978, as amended, and according
                    to generally accepted government auditing standards. We appreciate the
                    cooperation and courtesies extended to our audit team by TSA.




             Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                    Security Faces Significant Challenges
                                                   Page 24
Appendix B
Management Comments To The Draft Report




            Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                   Security Faces Significant Challenges
                                                  Page 25
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 26
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 27
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 28
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 29
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 30
Appendix B
Management Comments To The Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 31
Appendix B
Management Comments to Draft Report




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 32
Appendix C
Major Contributors to The Report



                  Transportation Security Audits Division

                  Timothy Crowe, Director, Transportation Security Audits Division
                  Patrick O’Malley, Audit Manager
                  Robert Ferrara, Auditor-In-Charge
                  Barry Bruner, Auditor
                  Christine Haynes, Auditor
                  Richard Kotecki, Auditor
                  Mark Phillips, Auditor
                  Brian Lynch, Referencer




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 33
   Appendix D
   TSA’s Aviation Security Inspector’s Cargo Inspection Process


                      Cargo
                 originates with
                     shipper                                                    Passenger aircraft                 No screening
                                                                                 over the counter                  requirement


                  Agent




  Indirect Air Carrier (IAC)
  shipper = known or unknown                                                  Passenger aircraft                     Is cargo
                                                     KNOWN
                                                                              screening facility                     exempt?



            UNKNOWN                                                                                             NO          YES



           All cargo carrier
               (12-5/DSIP)
                                                                                         (non-exempt cargo)


                                                                     Manifest verification (until 3/07)
                                                                     Physical inspection                                 Cargo
                                                                     X-ray equipment                                    shipped
                                                                     Explosives Detection System
                                                                     Detection canine teams
          (non-exempt cargo)                                         Explosives Trace Detection
                                                                     Decompression chambers

                                                RESPONSIBILITIES
Shipper              IAC                                    Air Carrier                             TSA

    Originates             Actions of agents and/or             Facility and Cargo security               Oversight of regulatory
    cargo                  contractors                          Screen the required                       compliance (IACS, air
                           Cargo booking and acceptance         percentage of air cargo                   carriers)
                           Cargo storage and ground             through approved methods                  Regulatory inspections
                           movement




                 Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                        Security Faces Significant Challenges
                                                       Page 34
Appendix E
Detail of Identified Screening Compliance Issues




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 35
Appendix E
Detail of Identified Screening Compliance Issues




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 36
Appendix E
Detail of Identified Screening Compliance Issues




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 37
Appendix E
Detail of Identified Screening Compliance Issues




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 38
Appendix E
Detail of Identified Screening Compliance Issues




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 39
Appendix F
Photographs of Vulnerable Cargo Shipments
________________________________________________________________________




        Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                               Security Faces Significant Challenges
                                              Page 40
Appendix G
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Assistant Secretary for Transportation Security Administration
                       Assistant Secretary for Policy
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative and Intergovernmental Affairs
                       Chief, Security Officer
                       Director, GAO/OIG Liaison Office
                       TSA Audit Liaison
                       Chief Privacy Officer

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate.




         Transportation Security Administration’s Oversight of Passenger Aircraft Cargo
                                Security Faces Significant Challenges
                                               Page 41
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
